                                                                                                2


For each of the 42 earmarks reviewed, we determined whether they funded activities that
were consistent with the Agency’s priorities for advancing its mission and goals. We did
this by comparing the earmarks against the Agency’s priorities as described in the 2006
NASA Strategic Plan, strategic planning documents, and other studies that are intended
to identify Agency priorities (see Enclosure 5). We limited the criteria of this audit to
these public articulations framing NASA priorities. We did not conduct any research or
examination of individual justifications for earmarks beyond these criteria.

We concluded that the 12 programmatic earmarks generally aligned with the Agency’s
priorities for advancing its mission and goals (see Enclosure 6), although, by definition, these
earmarks were not identical to the allocations of resources presented in the President’s
budget. These earmarks directed the use of specified funding amounts on existing NASA
programs, including the Hubble Space Telescope Servicing Mission and the heavy lift launch
vehicles.

In addition, we concluded that 21 of the 30 site-specific earmarks we selected for review, or
70 percent, also generally aligned with the Agency’s priorities for advancing its mission and
goals (see Enclosure 7). These 21 earmarks, with a total value of $28.45 million, involved
activities that aligned with priorities within the Agency’s Aeronautics, Exploration Systems,
and Science Mission Directorates as well as the Education Program. They included activities
such as aeronautics research, space technology, Earth science applications, and collegiate
education initiatives.

We also concluded that 9 of the site-specific earmarks we selected for review, or 30 percent,
did not align with the Agency’s priorities for advancing its mission and goals. These
9 earmarks, with a total value of $12.25 million, were comprised of:

    •   3 site-specific earmarks in the Exploration Systems Mission Directorate that directed
        funding to research that NASA determined was not feasible for developing the crew
        exploration and heavy lift launch vehicles or for advancing Strategic Plan goals of the
        Vision for Space Exploration through 2014;
    •   4 site-specific earmarks in the Science Mission Directorate that funded research
        projects that were not space, planetary, or Earth science priorities; and
    •   2 site-specific earmarks in NASA’s cross-Agency support offices that did not reflect
        priorities of those offices or NASA’s mission directorates.

We projected the results of our review of the 30 statistically selected site-specific earmarks
against our universe of all 187 FY 2006 site-specific earmarks. The projection indicated that
$201 million of the $287.5 million, or 70 percent of the funding for site-specific earmarks
aligned with NASA’s priorities, while $86.5 million, or 30 percent, did not align. When we
combine the results of our review of the programmatic and site-specific earmarks, we
estimate that $481.7 million, or 85 percent of FY 2006 earmarks, aligned with NASA’s
priorities, while $86.5 million, or 15 percent, did not align with those priorities.
                                                                                                          3


We recognize that there is vigorous debate on the utility and advisability of earmarks as
an appropriate exercise of congressional power. A finding of lack of alignment between
an earmark and NASA priorities, as we have defined it pursuant to the selected criteria,
is no more determinative of the appropriateness of congressional action than a finding of
alignment. In either instance, Congress, or members thereof, caused the redirection of
budgetary resources or added specificity on how to apply those resources that was
different from the Executive Branch’s proposal. While there are multiple perspectives
on how NASA can best achieve its mission, our objective was to provide relevant data
on the similarities and differences in the selected earmarks rather than opining on their
merits.

Because the FY 2006 appropriation did not provide additional funding for the 199 earmarks,
NASA redirected funding included in the President’s budget submission to fund the
earmarks. NASA documented the redirection of funding as part of the Initial Operating Plan1
submission. We were unable to link redirections to a specific earmark because NASA
redirected funds in the approved budget by considering earmarks, rescissions, and NASA
programmatic changes as an overall revision to the budget rather than as separate, individual
revisions. However, we were able to identify the overall impact of earmarks on the
Education Program, which received 73 earmarks with directed funding of $83.8 million, or
51 percent of its budget. Specifically, we reviewed 10 FY 2006 earmarks with a total value
of $26.1 million and concluded that while they aligned with NASA’s priorities for advancing
its mission and goals, the Agency redirected funding between activities in order to maintain
the same overall budget for education. For example, the Agency reduced funding for the
Minority University Researchers Education Program from 51 percent of the education budget
to 24 percent, while increasing informal education activities from 2 percent to 20 percent of
the budget.

As requested, we also reviewed NASA’s oversight of earmarks awarded as grants. NASA
awarded 29 of the 30 statistically selected site-specific earmarks as grants. Oversight
requirements for these earmark grants were consistent with oversight requirements for
non-earmark grants. We found that NASA personnel generally complied with oversight
requirements. NASA awarded one of the 30 earmarks as a contract and applied Federal and
NASA acquisition regulations to establish oversight requirements for the contract.

We provided a draft of this memorandum to NASA’s Deputy Assistant Administrator for
Legislative Affairs for review and comment. The Deputy Assistant Administrator concurred
with our findings and conclusions.

Background
The cost and number of earmarks has increased in the past 10 fiscal years. In FY 1997,
NASA’s budget included 6 earmarks; by 2006, the budget included 199 earmarks. Figure 1
shows the amount of congressionally directed spending through earmarks in NASA’s budget

1
    After NASA’s appropriation has been passed by Congress each fiscal year, NASA’s Initial Operating
    Plan is transmitted annually by the NASA Administrator to the chair and ranking member of the House
    and Senate Subcommittees on Commerce, Justice, Science, and Related Agencies.
                                                                                               4


over the last 10 years. Figure 2 shows changes in the number of NASA’s earmarks over the
last 10 years.

Figure 1. Growth in the Cost of NASA Earmarks, FY 1997 through 2006




Source: OIG analysis of data provided by the Office of Legislative Affairs.

Figure 2. Growth in the Number of NASA Earmarks, FY 1997 through 2006




Source: OIG analysis of data provided by the Office of Legislative Affairs.


In March 2004, the previous NASA Administrator expressed concerns about the magnitude
of congressional interest items in NASA’s budget. To better track the progress of earmark
projects and assess their value to NASA, the Agency established consistent, merit-based
evaluation processes and uniform and complete grant records for tracking earmark grant
proposals. The procedures required the evaluation of earmark grant proposals against three
standards from NASA’s policy on unsolicited proposals: specific relevance to the NASA
mission; intrinsic scientific, engineering, or technical merit; and cost reasonableness. The
procedures also established the means to document the evaluation. Enclosure 8 depicts
                                                                                              5


NASA’s process for site-specific earmarks. Procedures for evaluating grant proposals are
included in that process.

In the transmittal letter for NASA’s FY 2006 Initial Operating Plan, the current
Administrator noted that the Conference Report included a record-high number of
congressional interest items attached to the NASA appropriation, representing an increase of
more than $100 million over FY 2005. The Administrator expressed concern that the growth
of unrequested congressional directions for NASA funding was eroding the Agency’s ability
to carry out its mission of space exploration and peer-reviewed scientific discovery. The
letter noted that the magnitude of congressional directions could adversely impact NASA’s
ability to deliver the Crew Exploration Vehicle by the earliest possible date following the
2010 retirement of the shuttle.

Incorporating earmark projects into programs resulted in the redirection of funding from the
FY 2006 President’s budget to levels reported in the Initial Operating Plan. NASA had to
redirect funding from the President’s budget to accommodate $568.2 million for
199 earmarks that were not separately funded in the appropriation, while addressing
1.28 percent rescissions and making NASA-directed programmatic changes that were
decided after submission of the President’s budget. The redirection of funding from levels
requested in the President’s budget to levels reported in the Initial Operating Plan reduced
program budgets in NASA’s mission directorates and cross-Agency support offices.
Reductions, however, cannot be linked to a specific earmark because NASA redirected funds
in the approved budget by considering earmarks, rescissions, and NASA programmatic
changes as an overall revision to the budget rather than as separate, individual revisions.

Total Number and Overall Costs of Earmarks
NASA’s budget included 199 earmarks in FY 2006 with congressionally directed funding of
$568.2 million. Under NASA’s full cost accounting principles, staff time and administrative
costs are added to project costs. NASA requires Agency projects to follow full cost
accounting principles. However, for 22 of the 42 earmarks in our sample, the full costs of
administration, which includes staff time, were not accounted for as earmark project costs. If
full cost accounting principles had been followed, an estimated $8 million would have been
added to the $568.2 million in congressionally directed funding to make the total cost
$576.2 million (see Enclosure 9).

Impact of Earmarks on Advancing NASA’s Primary Mission and Goals

The Agency’s process for evaluating the relevance of earmarks identified 93 percent of the
earmarks in our sample as related to NASA’s mission. However, the redirection of funding
from the President’s budget reduced program budgets within NASA’s mission directorates
and cross-Agency support offices. Our assessment found that 85 percent of the earmarks
aligned with priorities for advancing NASA’s mission and goals; the 15 percent that did not
align represented $86.5 million in earmark funding.
                                                                                             6


Agency’s Assessment of Relevance to NASA’s Mission

NASA Grant Information Circular (GIC) 06-01, April 12, 2006, requires that earmarks be
evaluated and assessed to determine the relevance of the proposed effort to the NASA
mission. The evaluation and assessment are documented and maintained by NASA’s Office
of Legislative Affairs. GIC 06-01 further states that some earmarks are not directly relevant
to specific NASA programs or projects and relevance may need to be, in some cases, broadly
interpreted against NASA’s overall mission. GIC 06-01 encourages evaluators to work with
intended earmark recipients to align their proposals as closely with NASA’s mission as
possible. Supplemental guidance issued by the Office of Legislative Affairs requires an
assessment of the earmark’s relevance to mission as either strong, moderate, or marginal.

For 3 of the 42 earmarks (7 percent) in our sample, the assessment of relevance was not
documented. For 39 of the 42 earmarks (93 percent) in our sample, technical officers
evaluated the earmark as relevant to the NASA mission. For those 39 earmarks, 59
percent were assessed as strong, 38 percent were assessed as moderate, and 3 percent
were assessed as marginal.

Alignment of Earmarks with NASA’s Priorities
Priorities for advancing the Agency’s mission and goals are described in the 2006 NASA
Strategic Plan and plans for program activities included in the President’s budget. The plans
are required by the Government Performance Results Act of 1993. In selecting priorities for
those plans, NASA Procedural Directive 1000.0, “Strategic Management and Governance
Handbook,” August 2005, requires Agency senior management to engage the NASA internal
as well as external science communities, via the National Research Council and science
advisory groups, to define and prioritize science questions that NASA should pursue. The
National Research Council identifies priorities for NASA’s programs in decadal surveys and
other reports. In a March 2007 speech to the Goddard Space Symposium, the NASA
Administrator stated that decadal surveys provided by the scientific community are essential
for shaping the Agency’s funding choices within the disciplines of Earth science,
heliophysics, planetary science, and astrophysics.

Agency missions in aeronautics, exploration systems, and science received 113 of the
199 earmarks in FY 2006. Cross-Agency support offices, primarily the Office of Education,
were assigned the remaining 86 earmarks. To determine whether the earmark funded
research or other projects that aligned with priorities for advancing the mission, we compared
the 42 earmarks in our sample to priorities identified in the 2006 NASA Strategic Plan, in
plans for program activities in the President’s budget, and in external decadal surveys and
reports (see Enclosures 6 and 7). For 33 of 42 earmarks (79 percent), we found that the
earmark funded research that aligned with priorities for advancing the mission. However, for
9 of the 42 earmarks (21 percent), the earmark funded research or other projects that did not
align with priorities for advancing the mission. We statistically projected funding for the 9
site-specific earmarks to the sample universe of 187 site-specific earmarks for FY 2006 and
estimated that $86.5 million of the $568.2 million directed for earmarks did not align with
priorities for advancing the mission. (See Enclosure 10 for our calculation.)
                                                                                                    7


       Aeronautics Research Mission Directorate (ARMD). For FY 2006, the
President’s budget request included $852.3 million for ARMD. The Initial Operating Plan
provided an $884.1 million budget for ARMD. That budget included 17 earmarks with
congressionally directed funding of $97.5 million (11.4 percent of the approved ARMD
budget). The 17 earmarks included $60 million for 1 programmatic earmark and
$37.5 million for 16 site-specific earmarks. Of the 17 earmarks, we reviewed 3 with a value
of $67 million and found that they aligned with NASA’s priorities.

The aeronautics research mission was established in the National Aeronautics and Space Act
of 1958 (Space Act)2 and the Vision-100 Century of Aviation Reauthorization Act of 2003
(Vision-100).3 The Space Act requires the Agency to conduct aeronautics activities that
contribute materially to (1) improving the usefulness, performance, speed, safety, and
efficiency of aeronautical and space vehicles; (2) establishing long-range studies of the
potential benefits from the use of aeronautical and space activities; and (3) preserving the
United States as a leader in aeronautical and space science and technology applications for
peaceful activities in the atmosphere and in space. Vision-100 requires NASA to assist in
developing the Next-Generation Air Transportation System (NGATS) and designates NASA
as the lead Agency in developing a redesigned air-traffic control system for the NGATS.
That responsibility was deemed a national priority in the Vision-100 legislation because
domestic air travel is expected to triple over the next 20 years and overload our current air
travel system.4 The mission established in the Space Act and Vision-100 is contained in the
Strategic Plan, Sub-goal 3E.

We assessed the $60 million programmatic earmark and 2 site-specific earmarks against
Sub-goal 3E and project planning documents to determine whether the earmarks aligned with
ARMD priorities. We found that the ARMD earmarks align with Sub-goal 3E. We also
found that $10 million of the $60 million programmatic earmark funded hypersonic research
that aligns with priorities identified in NASA’s “Fundamental Aeronautics Hypersonic
Proposal,” April 28, 2006 draft. The remaining $50 million of the $60 million earmark
funded other hypersonic, subsonic, and supersonic research activities that align with priorities
identified in the Hypersonic Project, Subsonic Fixed Wing Project, Subsonic Rotary Wing,
and Supersonic Project Reference Documents. The 2 site-specific earmarks aligned with
priorities in those hypersonic, subsonic, and supersonic reference documents as well as
reference documents within the directorate’s Aviation Safety and Airspace Systems
Programs.

ARMD earmark activities also aligned with priorities identified in a report requested by
Congress and a survey commissioned by NASA. During the FY 2006 appropriation process,
Congress requested that the National Institute of Aerospace (NIA) provide an assessment that
was to lead the development of a 5-year aeronautics research plan and budget for NASA. In
April 2005, NIA provided its assessment to Congress in Responding to the Call: Aviation

2
    Public Law 85-568, “National Aeronautics and Space Act,” 72 Stat. 426 438 (July 29, 1958), as
    amended.
3
    Public Law 108-176, “Vision-100 Century of Aviation Reauthorization Act,” December 12, 2003.
4
    Government Accountability Office. “National Airspace System Modernization” (GAO-06-1114T,
    September 27, 2006).
                                                                                                        8


Plan for American Leadership, which identified critical enabling technologies for hypersonic
flight, access to space, and space technology. NASA commissioned the National Research
Council to complete a survey of civil aeronautics that would prioritize research projects to be
undertaken in the next 10 years. Decadal Survey of Civil Aeronautics: Foundation for the
Future (National Research Council, 2006), conducted concurrently with NASA’s assessment
of the aeronautics program, identified 51 research and technology capabilities as priorities.

         Exploration Systems Mission Directorate (ESMD). For FY 2006, the President’s
budget included $3.165 billion for ESMD. The Initial Operating Plan provided a
$3.05 billion budget for ESMD. That budget included 57 earmarks with congressionally
directed funding of $157.1 million (5 percent of ESMD’s budget). The 57 earmarks included
$60 million for 4 programmatic earmarks and $97.1 million for 53 site-specific earmarks. Of
the 57 earmarks, we reviewed 12 with a value of $71 million. Of the 12 earmarks, we found
that 3 site-specific earmarks with a value of $5 million did not align with NASA’s priorities.

Executive Order 13326, “The President’s Commission on Implementation of United States
Space Exploration Policy,” January 27, 2004, established the Vision for Space Exploration.
Goals for the Vision for Space Exploration include (1) developing and testing a new
spacecraft, the crew exploration vehicle, by 2008, to support human exploration missions no
later than 2014; and (2) returning to the Moon, no later than 2020, as the launching point for
missions beyond.5 Those goals are stated in the Strategic Plan as Goals 4 and 6, respectively.

We reviewed the 4 programmatic earmarks and statistically selected 8 site-specific earmarks
for assessment to determine whether they aligned with ESMD priorities. We assessed the
earmarks against Strategic Plan Goals 4 and 6 and a study commissioned by the NASA
Administrator, “NASA’s Exploration Systems Architecture Study (ESAS) Final Report,”
November 2005. The purpose of that study was to determine the best exploration
architecture and strategy to implement the Vision for Space Exploration. As stated in the
study’s preface, one purpose of the study was to identify key technologies required to enable
a reprioritization of near-term and far-term technology investments. We found that all 4 of
the programmatic earmarks (100 percent) and 5 site-specific earmarks (63 percent) aligned
with priorities in ESAS. We also found that 3 site-specific earmarks (37 percent) did not
align. Table 1 describes our assessment for those 3 site-specific earmarks.




5
    President Bush described the goals during his announcement of the Vision for Space Exploration on
    January 14, 2004, and in “A Renewed Spirit of Discovery,” January 2004.
                                                                                                            9




                         Table 1. ESMD Earmarks Not Aligned with Priorities
          Earmark                  Funding       Description
  Collaborative research on         $1,000,000   Nanotechnology research was deemed a low
  innovative carbon                              priority for developing the crew exploration and
  nanotechnology                                 heavy lift launch vehicles. The President’s
  Support for research in           $2,000,000   budget reduced nanotechnology research and
  nanotechnology and                             stated the research was a low priority for
  biotechnology                                  advancing the Vision for Space Exploration.
  Support for research and          $2,000,000   ESAS stated that early emphasis had been
  development in                                 placed on revolutionary exploration concepts,
  nanotechnology,                                such as nanostructures, but that many of these
  biotechnology, and                             concepts turned out to be either not feasible for
  information technology                         human exploration missions or well beyond
                                                 expected technology readiness for near-term
                                                 implementation. The ESAS study identified the
                                                 crew exploration and heavy lift launch vehicles as
                                                 near-term priorities for achieving goals defined by
                                                 the President for a manned flight no later than 2014.

                                                      For one earmark, a research proposal was not
                                                      submitted to NASA. For the other two earmarks,
                                                      research did not align with the priorities of goals
                                                      and sub-goals for the Vision for Space Exploration
                                                      through 2014. Those goals and sub-goals were
                                                      described in the Strategic Plan.

Source: OIG analysis of earmark work statements.

The Initial Operating Plan provided approximately $16 million for nanotechnology research
that was included in FY 2006 earmarks. At the same time, the Initial Operating Plan
eliminated funding for nano-material research activities within ESMD that were not
earmarks. The explanation provided in the Initial Operating Plan was that long-term
development of nano-materials was eliminated to redirect technology funding from lower
priority research and technology elements and to refocus on those activities that support
acceleration of the crew exploration vehicle, launch systems, and critical long lead items.

        Science Mission Directorate (SMD). For FY 2006, the President’s budget request
included $5.476 billion for SMD. The Initial Operating Plan provided SMD a $5.254 billion
budget. That budget included 39 earmarks with congressionally directed funding of
$188.6 million (3.4 percent of the SMD budget). The 39 earmarks included $140.3 million
for 5 programmatic earmarks and $48.3 million for 34 site-specific earmarks. Of the 39
earmarks, we reviewed 14 with a value of $148.6 million and found that 4 site-specific
earmarks with a value of $2.6 million did not align with NASA’s priorities.

Strategic Plan Goal 3 is to develop a balanced overall program of science and exploration
consistent with the redirection of the human spaceflight program to focus on exploration.
Sub-goals 3A through 3D state that a balanced program will (1) study Earth from space to
advance scientific understanding and meet societal needs; (2) understand the Sun and its
effects on Earth and the solar system; (3) advance scientific knowledge of the solar system,
                                                                                               10


search for evidence of life, and prepare for human exploration; and (4) discover the origin,
structure, evolution, and destiny of the universe, and search for Earth-like planets.

To determine whether the sampled earmarks aligned with SMD priorities, we assessed the
5 programmatic earmarks and 9 statistically sampled site-specific earmarks against the
Strategic Plan and NASA planning documents. Specifically, the evaluation considered
NASA’s Earth Science Enterprise Strategy (2003); Space Science Enterprise Strategy
(2003); Sun-Solar System Connection (May 22, 2005); Exploring Our Planet for the Benefit
of Society (May 2005); Universe Exploration: From the Big Bang to Life (May 20, 2005);
Agency Objective Statement, Strategic Roadmap #4 (2005); SRM3: The Solar System
Exploration Strategic Roadmap (2005); and the “NASA Earth Science Research Plan”
(January 6, 2005 Draft). The 5 programmatic earmarks and 5 of the site-specific earmarks
(56 percent) aligned with priorities in those documents. However, 4 site-specific earmarks
(44 percent) did not align with priorities in Sub-goals 3A through 3D, the Earth Science
Enterprise Strategy, the Space Science Enterprise Strategy, or the “NASA Earth Science
Research Plan” (Draft). Those 4 earmarks also did not align with priorities in three studies
by the National Academy of Sciences. Table 2 describes our assessment of those 4 earmarks.
                                                                                                           11


                           Table 2. SMD Earmarks Not Aligned with Priorities
             Earmark                 Funding       Description
    University research of              $500,000   Research of deep submicron radiation electronics
    deep submicron radiation                       was not identified as a planetary science priority
    hard electronics                               in Strategic Plan Goal 3, the Earth Science
                                                   Enterprise Strategy, or the Space Science
                                                   Enterprise Strategy. Similar research was not
                                                   included as a priority in three studies by the
                                                   National Academy of Sciences.a
    University digital image            $750,000   Project did not reflect NASA Earth Science
    archive center                                 research priorities in Strategic Plan Goal 3 or the
                                                   NASA Earth Science Research Plan. According
                                                   to the project’s proposal, the project would use a
                                                   narrow, regional set of land cover data for a
                                                   digital image processing and archive center with
                                                   the purpose of landscape planning and
                                                   monitoring in the region. Sub-goal 3A states
                                                   that the Agency will study the Earth from space
                                                   to quantify global land cover change. The Earth
                                                   Science Research Plan states that NASA science
                                                   seeks to understand the consequences of land
                                                   cover and land use changes, including climate
                                                   changes. Similar research was not a priority in
                                                   the three studies by the National Academy of
                                                   Sciences.a
    University center for              $1,000,000  Proposal states that this earmark “is foremost a
    space and planetary                            scientific infrastructure grant, the purpose being
    sciences                                       to grow the individual research projects to a
                                                   point where they are nationally competitive for
                                                   support and to further develop our facilities and
                                                   expertise.” The Strategic Plan does not define a
                                                   priority for developing scientific infrastructure at
                                                   universities so that those institutions may
                                                   perform future sample-return analyses. Similar
                                                   research was not a priority in the three studies by
                                                   the National Academy of Sciences.a
    University research                 $300,000   Earmark funded the continued operation of seven
    of Sun-climate and                             photometric automated telescopes at a privately
    extra solar planets                            owned nonprofit observatory. The telescopes
                                                   were not a priority in Strategic Plan Goal 3.
                                                   They were not identified as priorities in the three
                                                   studies by the National Academy of Sciences.a
a
    The three National Academy of Sciences studies are the Earth Science and Applications from Space: Urgent
    Needs and Opportunities to Serve the Nation (2005); Review of Goals and Plans for NASA’s Space and Earth
    Sciences (2006); and Earth Science and Applications from Space: National Imperatives for the Next Decade
    and Beyond (2007) Prepublication copy.
Source: OIG analysis of earmark work statements.
                                                                                           12


        Office of Education (OEd). The 2006 NASA Strategic Plan describes the cross-
Agency support programs, which include OEd. In FY 2006, OEd received a $166.9 million
budget that included 73 earmarks with directed funding of $83.8 million (51 percent of OEd’s
budget). The 73 earmarks included $20.4 million for 2 programmatic earmarks and
$63.4 million for 71 site-specific earmarks. Of the 73 earmarks, we reviewed 10 with a value
of $26.1 million and found they aligned with NASA’s priorities. We also assessed the impact
of FY 2006 earmarks on the overall OEd budget and found that the Agency decreased the
budget for the Minority University Researchers Education Program (MUREP) while
increasing the budget for informal education, in order to maintain the same overall budget for
education.

The Strategic Plan establishes three goals for OEd. The first goal is to strengthen NASA and
the Nation’s future workforce; the second goal is to attract and retain students in science,
technology, engineering, and mathematics (STEM) disciplines; and the third is to engage
Americans in NASA’s mission. To meet these goals, OEd manages educational activities in
five program areas: (1) MUREP, (2) higher education, (3) elementary and secondary
education, (4) E-education, and (5) informal education.

The 2 programmatic earmarks totaling $20.4 million met program objectives defined by
Congress. The first earmark directed a $12.2 million augmentation to the Space Grant
Program. The Space Grant Program was established in Title II of the “National Aeronautics
and Space Administration Authorization Act of 1988,” 42 U.S.C. 2486, October 30, 1987.
NASA’s program mirrors the objective defined in legislation—to broaden the base of
universities and individuals contributing to and benefiting from aerospace science and
technology. The second earmark directed an $8.2 million augmentation to the NASA
Experimental Program to Stimulate Competitive Research (EPSCoR). EPSCoR was
established in the “National Aeronautics and Space Administration Authorization Act,
FY 1993,” Public Law 102-588, November 4, 1993. The NASA program reflects the
purpose defined in legislation—to provide states with funding to develop a more competitive
research base. NASA and six other Federal agencies conduct EPSCoR programs.

Earmarks influenced OEd’s spending and priorities. To redirect funding for earmark projects
while maintaining the same overall budget, OEd replanned its programs. The replanning
resulted in significantly different program priorities from those initially proposed in the
President’s budget. Figure 3 illustrates the OEd program budget before and after replanning.
                                                                                             13

Figure 3. Education Budget Before and After Replanning




Source: OIG analysis of NASA’s FY 2006 Initial Operating Plan.


As shown in the charts, funding for informal education grew from 2 to 20 percent of the OEd
budget, while funding for MUREP decreased from 51 to 24 percent of the OEd budget. The
informal education program area promotes awareness of NASA’s mission among the
American public through hands-on, interactive, educational activities. Informal education
projects include science centers, museums, and planetariums. The MUREP program awards
multiyear grants to engage minority institutions, faculty, and students in research pertinent to
NASA missions. MUREP focuses on retaining underrepresented and underserved students in
a STEM discipline and their entry into the scientific and technical workforce.

The reduction in MUREP funding resulted in cuts to each of the 18 on-going projects in the
program area. Two MUREP projects, the University Research Centers (URC) and Faculty
Awards for Research (FAR), illustrate how the cuts affected institutions, faculty, and
students.

    •   URC. URC provides a competitive NASA-related research capability among
        minority institutions that fosters new aerospace science and technology concepts.
        Support for URC helps U.S. citizens obtain advanced degrees in STEM disciplines.
        The FY 2006 URC budget was reduced 57.1 percent from $19.8 million, as proposed
        in the President’s budget request, to $8.5 million. This reduction eliminated
        solicitation of new institutions to participate during FY 2006, reduced the number of
        fully funded URC from 17 to 11, and eliminated 300 graduate and undergraduate
        students and more than 30 faculty members from engaging in NASA research.
                                                                                               14



   •   FAR. FAR permits faculty at minority institutions to integrate research and
       education with the unique mission requirements of a specific NASA Center.
       NASA’s intent is to increase the interest and participation of students traditionally
       underrepresented in the Agency’s research programs. FAR funding was cut by
       80 percent in FY 2006. This cut resulted in 50 fewer faculty researchers and more
       than 200 fewer students engaging in ongoing NASA research.

Although support for informal education was relevant to the NASA mission, informal
education did not focus funding on activities designed to provide the knowledge and skills
needed for NASA’s future workforce. That focus differed from what NASA preferred.
Informal education efforts are described in OEd strategic planning document, “NASA
Education Strategic Coordination Framework: A Portfolio Approach,” June 26, 2006, as
efforts that are very broad and have the goal of reaching and inspiring a large number of
people. In contrast, the framework describes focused education activities, such as those
conducted through MUREP and FAR, as activities designed to promote learning among
targeted populations and to develop specific STEM knowledge and skills.

        Other Cross-Agency Support Offices. Cross-Agency support programs also
include the Shared Capability Assets Program, the Innovative Partnerships Program, and
Advanced Business Systems. Those programs involve the Office of Institutions and
Management, the Innovative Partnerships Program, and the Office of Chief Information
Officer (OCIO). In FY 2006, the offices received 13 site-specific earmarks with directed
funding of $41.3 million. Of the 13 earmarks, we reviewed 3 with a value of $8.7 million
and found that 2 of the site-specific earmarks with a value of $4.7 million did not align
with NASA’s priorities.

To determine whether the earmarks aligned with NASA priorities, we assessed the 3 site-
specific earmarks against the Strategic Plan, OEd secondary education program plans, and the
ESAS report. Of the 3 site-specific earmarks we reviewed, we found that 2 earmarks
(67 percent) did not reflect priorities for the cross-Agency support offices or the Agency’s
mission directorates. Table 3 describes our assessment of those 2 earmarks.
                                                                                                   15

       Table 3. Earmarks in Cross-Agency Support Offices Not Aligned with NASA Priorities
           Earmark                Funding        Description
 Initiative for NASA                $200,000     Initiative did not reflect strategic goals of
 education K-12                                  Innovative Partnerships and proposed to provide
                                                 materials that were already available from OEd
                                                 at no cost. Earmark project was to deliver
                                                 Internet-based tools and education lessons to 30
                                                 schools and 20,000 students over a 3-year
                                                 period. Project was not aligned with the
                                                 Strategic Plan, which states that Innovative
                                                 Partnerships will promote innovative technology
                                                 partnerships among NASA, U.S. industry, and
                                                 other sectors for the benefit of Agency programs
                                                 and projects. Project supports goals of
                                                 secondary education programs in OEd that
                                                 already provided tools and educational materials
                                                 similar to those provided by the earmark project.
 Research of grid                 $4,500,000     Research did not align with OCIO or exploration
 computing-based                                 systems priorities. Research involved grid
 evolutionary design                             computing-based design techniques that may
 techniques across NASA                          result in automatic design software with potential
 applications                                    application on long-term space missions.
                                                 Techniques were not discussed in OCIO goals
                                                 stated in the Strategic Plan or goals for long-term
                                                 space missions discussed in the Strategic Plan.
                                                 We found no current or future plans within
                                                 NASA for efforts in the area of automatic design
                                                 software. Grid computing-based evolutionary
                                                 design techniques are not mentioned in the ESAS
                                                 report as an exploration system priority.

Source: OIG analysis of earmark work statements.

NASA’s Oversight of Earmarks and Other Expenditures
Oversight consists of internal control procedures over the evaluation, award, and monitoring
of earmarks and other procurement expenditures. For our statistically selected sample, we
compared NASA’s oversight requirements for earmarks to the oversight requirements for
other expenditures. NASA’s procedures for implementing and administering earmarks
provide that earmark grants are subject to the same oversight requirements as other grant
expenditures. Specifically, GIC 06-01 states

        Grant and contracting officers processing non-competitive grants and cooperative agreements
        resulting from unsolicited proposals and proposals for renewals, shall comply with applicable
        coverage in 14 C.F.R. Part 1260, i.e., Grant Handbook.

We tested NASA’s implementation of oversight requirements for 29 site-specific earmarks in
our statistically selected sample that were grant awards. We found that personnel responsible
for evaluating, awarding, and monitoring earmarks generally complied with the Agency’s
oversight requirements. We also found that NASA technical officers for 12 of the
29 earmarks (41 percent) provided earmark recipients with assistance to ensure that
recipients’ proposals demonstrated relevance to mission and scientific merit. The assistance,
                                                                                               16


which was encouraged but not required under NASA policy, included performing multiple
technical evaluations as earmark recipients revised and resubmitted their proposals.

A researcher submitting a grant proposal either in response to a competitive solicitation or as
an unsolicited grant proposal does not receive similar assistance with proposals. NASA’s
policy for proposals submitted in response to a competitive announcement states that it is the
principal investigator’s responsibility to ensure that the proposal is relevant to the mission and
guidelines stated in the announcement. The policy further states NASA will make selection
decisions based on the most scientifically excellent proposals that meet those guidelines.
NASA’s policy for unsolicited proposals allows discussion between the researcher and
Agency prior to selection but states that the discussion is limited to understanding NASA’s
need for the research. Based on discussions with technical officers, those policies are
followed, and non-earmark recipients do not typically receive the additional assistance
provided to earmark recipients.

Our statistically selected sample included only one contract with tasks funded by the earmark.
The contract included clauses that stated oversight requirements from Federal and NASA
acquisition regulations. Those regulations are used to establish oversight requirements for
other NASA contracts.

If you have any questions concerning this audit, please contact me at 358-1220 or Ms. Evelyn
Klemstine, the Assistant Inspector General for Auditing, at 358-2572.


    signed
Robert W. Cobb

10 Enclosures

cc:
Legislative Affairs Officer
Legislative Affairs Specialist
Audit Liaison Representative, ESMD
Audit Liaison Representative, ARM
                                 Scope and Methodology

Scope
Fieldwork for the audit was conducted from October 2006 through August 2007. For this
audit, a congressional earmark was defined as a provision of law, a directive, or item
represented in any table, chart, or text contained within a joint explanatory statement or a
report accompanying a bill that specifies the identity of an entity, program, project, or service
and the amount of the assistance to be received. We limited our audit to FY 2006 earmarks.

Methodology
To identify the total number of FY 2006 earmarks, we interviewed officials from the Office of
Legislative Affairs (OLA) regarding methods by which earmarks were communicated to the
Agency. We reviewed Conference Report on H.R. 2862, “Science, State, Justice, Commerce,
and Related Agencies Appropriations Act, 2006,” and OLA records.

To estimate the total cost of earmarks in FY 2006, we interviewed Headquarters and Center
officials about the Agency’s use of full cost accounting practices on earmarks. We determined
from interviews and documentation that Center costs for overhead and administrative effort by
Center technical officers were not deducted in accordance with full cost accounting practices.
To determine a value for Center overhead, we applied the Center overhead rate to the cost of
civil servants working directly on an earmark. To determine a value for administrative effort
by Center technical officers, we obtained an estimate of the time devoted to that effort
(communicating with earmark designees, reviewing proposals, and monitoring earmark
recipients’ efforts). We multiplied technical officer time estimates by Center labor rates and
added other expenses, such as travel, that were incurred for the administrative effort. We
applied Center overhead and fringe rates and subtracted Center overhead that had already been
deducted from earmark funding. We projected the value of additional administrative effort for
the 30 statistically selected earmarks to the universe of site-specific earmarks (see Enclosure 9).

To assess the overall impact of earmarks on advancing the primary mission and goals of the
Agency, we conducted interviews with NASA program executives, resource analysts,
procurement officers, financial officials, and technical officers for the earmark projects. We
interviewed technical officers and reviewed pertinent records to determine the work scope that
was funded by earmarks. We compared the work scope to the Agency’s priorities as defined
in internal and external program documents. We verified the results of our comparisons with
NASA technical officers. We surveyed technical officers for earmark grant projects to
identify indicators of technical performance. We also determined the percentage of
competitive awards and reviewed existing policies on competition. We determined the value
of earmarks in our sample that did not align. We projected the value of earmarks that did not
align in our statistically selected sample to the universe of site-specific earmarks (see
Enclosure 10).




                                                                                     Enclosure 1
                                                                                     Page 1 of 2
To determine the oversight NASA conducted on earmarks and how that oversight compared
to the oversight on other expenditures, we interviewed NASA program executives and
procurement officials to obtain an understanding of Agency oversight procedures. We
reviewed Agency procedures for implementing and administering earmarks and compared
oversight requirements for earmarks to the oversight requirements for other procurement
expenditures. We interviewed technical officers, reviewed grant files, and obtained contract
information to determine the nature and extent of oversight conducted on sampled earmarks.
We did not evaluate whether NASA’s oversight procedures were effective in helping the
Agency achieve intended procurement outcomes.

We performed our audit procedures on a sample of NASA’s 199 FY 2006 earmarks. The
sample consisted of all 12 programmatic earmarks valued at $280.7 million, and a statistically
selected sample of 30 site-specific earmarks valued at $40.7 million. The results of our
statistically selected sample were projected to the universe of site-specific earmarks as
described in Enclosures 9 and 10.




                                                                                  Enclosure 1
                                                                                  Page 2 of 2
                                  Sampled Programmatic Earmarks
             Programmatic Earmark in Each Mission Directorate
                        or Cross-Agency Support Office                Amount
Aeronautics Research
    Aeronautics Research Program                                       $60,000,000
 Education
    Experimental Program to Stimulate Competitive Research (EPSCoR)      8,200,000
    Space Grant Program                                                 12,200,000
 Exploration Systems
    National Center for Advanced Manufacturing                          20,000,000
    Alternative Small Spacecraft Technologies                           20,000,000
    Propulsion Research Laboratory                                      15,000,000
    Heavy Lift Launch Vehicle                                            5,000,000
 Science
    Hubble Space Telescope Servicing Mission                            80,300,000
    Glory Mission                                                       30,000,000
    Earth Science Competitive Grant Program                             15,000,000
    Space Interferometry Mission                                        10,000,000
    Living With a Star Program                                           5,000,000
         Total programmatic earmarks (12)                             $280,700,000




                                                                       Enclosure 2
                                                                       Page 1 of 1
                             Statistically Sampled Site-Specific Earmarks
                  Site-Specific Earmark in Each Mission Directorate
                            or Cross-Agency Support Office                                Amount
Aeronautics Research
   Research of propagating and predicting uncertainty in dynamic systems                  $3,000,000
   Aeronautics research of which $1 million is for a demonstration of the Navy's Joint
                                                                                           4,000,000
   Aviation Technical Data Integration program into civilian applications
Education
   Space exploration education program                                                       700,000
   Collegiate innovative teacher training initiative                                       1,000,000
   University academic programs                                                            1,000,000
   Collegiate integrated education center                                                  1,000,000
   Public school system math and science programs                                            150,000
   Space education learning center                                                           600,000
   Science center exhibits                                                                   250,000
   University education initiative                                                         1,000,000
Exploration Systems
   Collaborative research on innovative carbon nanotechnology                              1,000,000
   Space technology program                                                                1,000,000
   University development and enhancement of space flight technologies                     1,000,000
   Program for high-power pulsed inductive thruster technology research                    2,000,000
   University research of rejuvenating injured tissues for enhanced wound healing          1,000,000
   Laboratory initiative for a modeling and simulation test bed environment                1,000,000
   Support for research in nanotechnology and biotechnology                                2,000,000
   Support for research and development in nanotechnology, biotechnology, and
                                                                                           2,000,000
   information technology
Other Cross-Agency Support Offices
   Research of grid computing-based evolutionary design techniques across NASA
                                                                                           4,500,000
   applications
   Infrastructure upgrades to accommodate unmanned aerial vehicles                         4,000,000
   Initiative for NASA education K-12                                                        200,000
Science
   University center for earth observing research                                          2,000,000
   Collaborative research of earth science applications                                    2,000,000
   University research of deep submicron radiation hard electronics                          500,000
   University laboratory for advanced scintillator materials                                 800,000
   University support of a large millimeter telescope project                                750,000
   Project to support geospatial sciences                                                    200,000
   University research of Sun-climate and extra solar planets                                300,000
   University digital image archive center                                                   750,000
   University center for space and planetary sciences                                      1,000,000
       Total site-specific earmarks (30)                                                 $40,700,000




                                                                                         Enclosure 3
                                                                                         Page 1 of 1
                              Summary of Sampled Earmarks
                                    (dollars in millions)
                                                          Statistically
                                           Sampled          Sampled
Mission Directorate or Cross-Agency    Programmatic       Site-Specific
           Support Office                 Earmarks         Earmarks       Totals
 Aeronautics Research                        $ 60.0            $ 7.0        $ 67.0
 Education                                     20.4              5.7          26.1
 Exploration Systems                           60.0             11.0          71.0
 Other Cross-Agency Support                     −                8.7           8.7
 Science                                      140.3              8.3        148.6
      Totals                                $280.7            $40.7        $321.4




                                                                          Enclosure 4
                                                                          Page 1 of 1
                    Criteria Used to Assess Alignment with Priorities

 To assess whether the sampled earmarks aligned with NASA’s priorities, we compared the
 work scope of the 42 sampled earmarks to Agency priorities as defined in internal and
 external program documents listed below.

 Aeronautics Research

   •   National Aeronautics and Space Act of 1958
   •   NASA Policy Directive (NPD) 1001.0, “2006 NASA Strategic Plan,”
       February 7, 2006
   •   Vision-100 Century of Aviation Reauthorization Act of 2003
   •   NASA, “Fundamental Aeronautics Hypersonic Proposal,” April 28, 2006 draft
   •   NASA, “Fundamental Aeronautics Hypersonics Project Reference Document,”
       May 25, 2006
   •   NASA, “Fundamental Aeronautics Program Subsonic Fixed Wing Project Reference
       Document,” not dated
   •   NASA, “Fundamental Aeronautics Subsonic – Rotary Wing Reference Document,”
       May 26, 2006
   •   NASA, “Fundamental Aeronautics Program Supersonics Project Reference
       Document,” May 26, 2006
   •   NASA, “Next Generation Air Transportation System (NGATS) Air Traffic
       Management (ATM) Air Portal Project Reference Material,” February 19, 2007
   •   NASA, “NGATS ATM Airspace Project Reference Material,” June 1, 2006
   •   National Institute of Aeronautics, “Responding to the Call: Aviation Plan for
       American Leadership,” April 2005
   •   National Research Council, “Decadal Survey of Civil Aeronautics: Foundation for the
       Future,” 2006
   •   National Research Council, “Aeronautics Innovations: NASA’s Challenges and
       Opportunities,” 2006

Education

   •   2006 NASA Strategic Plan
   •   NASA, “NASA Education Strategic Coordination Framework: A Portfolio
       Approach,” June 26, 2006

Exploration Systems

   •   2006 NASA Strategic Plan
   •   “NASA’s Exploration Systems Architecture Study (ESAS) Final Report,”
       November 2005




                                                                              Enclosure 5
                                                                              Page 1 of 2
Exploration Systems (continued)

   •   National Research Council, “Assessment of NASA’s Mars Architecture 2007−2016,”
       2006

Other Cross-Agency Support Offices

   •   2006 NASA Strategic Plan
   •   “NASA’s Exploration Systems Architecture Study (ESAS) Final Report,”
       November 2005

Science

   •   2006 NASA Strategic Plan
   •   NASA, “Earth Science Enterprise Strategy,” October 1, 2003
   •   NASA, “Space Science Enterprise Strategy,” October 1, 2003
   •   NASA, “Sun-Solar System Connection Strategic Roadmap,” May 22, 2005
   •   NASA, “Exploring Our Planet for the Benefit of Society,” May 2005
   •   NASA, “Universe Exploration: From the Big Bang to Life,” May 20, 2005
   •   NASA, “Agency Objective Statement, Strategic Roadmap #4, The Search for Earth-
       Like Planets,” 2005
   •   NASA, “SRM3: The Solar System Exploration Strategic Roadmap,” 2005
   •   NASA, “NASA Earth Science Research Plan,” January 6, 2005 Draft
   •   National Research Council, “Earth Science and Applications from Space: Urgent
       Needs and Opportunities to Serve the Nation,” 2005
   •   National Research Council, “Review of Goals and Plans for NASA’s Space and Earth
       Sciences,” 2006
   •   National Research Council, “Earth Science and Applications from Space: National
       Imperatives for the Next Decade and Beyond,” 2007 Prepublication Copy
   •   National Research Council, “An Assessment of Balance in NASA’s Science
       Programs,” 2006
   •   National Research Council, “Science in NASA’s Vision for Space Exploration,” 2005
   •   NASA, “Report of the Planetary Science Subcommittee of the NASA Advisory
       Council Science Committee,” September 25−26, 2006




                                                                              Enclosure 5
                                                                              Page 2 of 2
                            Sampled Programmatic Earmarks that
                                   Aligned with Priorities

To assess whether the sampled programmatic earmarks aligned with NASA’s priorities, we
compared the work scope of the earmarks to Agency priorities as defined in internal and
external program documents including NASA planning documents and studies that identified
NASA’s priorities. This listing shows only the primary documents we used.

                 Programmatic Earmarks that Aligned with NASA’s Priorities
 Mission Directorate or Cross-Agency                         Program Documents Used to Assess
           Support Office                      Amount            Alignment with Priorities
 Aeronautics Research
   Aeronautics Research Program               $60,000,000   National Aeronautics and Space Act of
                                                            1958 and 2006 NASA Strategic Plan,
                                                            Sub-goal 3E
 Education
   Experimental Program to Stimulate            8,200,000   2006 NASA Strategic Plan, Strategic
   Competitive Research (EPSCoR)                            Communications: Education Initiative
   Space Grant Program                         12,200,000   2006 NASA Strategic Plan, Strategic
                                                            Communications: Education Initiative
 Exploration Systems
   National Center for Advanced                20,000,000   2006 NASA Strategic Plan, Goals 4 and 6
   Manufacturing
   Alternative Small Spacecraft                20,000,000   2006 NASA Strategic Plan, Goals 5 and 6,
   Technologies                                             Sub-goal 3F
   Propulsion Research Laboratory              15,000,000   2006 NASA Strategic Plan, Goals 4 and 6
   Heavy Lift Launch Vehicle                    5,000,000   2006 NASA Strategic Plan, Goals 4 and 6
 Science
   Hubble Space Telescope Servicing            80,300,000   2006 NASA Strategic Plan, Goal 1;
   Mission                                                  Sub-goal 3D
   Glory Mission                               30,000,000   2006 NASA Strategic Plan, Sub-goals 3C
                                                            and 3D
   Earth Science Competitive Grant Program     15,000,000   2006 NASA Strategic Plan, Goal 3
   Space Interferometry Mission                10,000,000   2006 NASA Strategic Plan, Sub-goals 3C
                                                            and 3D
   Living With a Star Program                   5,000,000   2006 NASA Strategic Plan, Sub-goals 3B
                                                            and 3C
      Total programmatic earmarks that
      align with priorities (12)             $280,700,000




                                                                                         Enclosure 6
                                                                                         Page 1 of 1
                         Statistically Sampled Site-Specific Earmarks that
                                        Aligned with Priorities

To assess whether the sampled site-specific earmarks aligned with NASA’s priorities, we
compared the work scope of the earmarks to Agency priorities as defined in internal and
external program documents, including NASA planning documents and studies that identified
NASA’s priorities. This listing shows only the primary documents we used.


                     Site-Specific Earmarks that Aligned with NASA’s Priorities

  Mission Directorate or Cross-Agency                               Program Documents Used to Assess
            Support Office                            Amount            Alignment with Priorities
Aeronautics Research
  Research of propagating and predicting              $3,000,000   2006 NASA Strategic Plan, Sub-goal 3E
  uncertainty in dynamic systems
  Aeronautics research—$1 million is for a             4,000,000   2006 NASA Strategic Plan, Sub-goal 3E
  demonstration of civilian applications for the
  Navy’s Joint Aviation Technical Data
  Integration program
Education
  Space exploration education program                   700,000    2006 NASA Strategic Plan, Strategic
                                                                   Communications: Education Initiative
  Collegiate innovative teacher training initiative    1,000,000   2006 NASA Strategic Plan, Strategic
                                                                   Communications: Education Initiative
  University academic programs                         1,000,000   2006 NASA Strategic Plan, Strategic
                                                                   Communications: Education Initiative
  Collegiate integrated education center               1,000,000   2006 NASA Strategic Plan, Strategic
                                                                   Communications: Education Initiative
  Public school system math and science                 150,000    2006 NASA Strategic Plan, Strategic
  programs                                                         Communications: Education Initiative
  Space education learning center                       600,000    2006 NASA Strategic Plan, Strategic
                                                                   Communications: Education Initiative
  Science center exhibits                               250,000    2006 NASA Strategic Plan, Strategic
                                                                   Communications: Education Initiative
  University education initiative                      1,000,000   2006 NASA Strategic Plan, Strategic
                                                                   Communications: Education Initiative
Exploration Systems
  Space technology program                             1,000,000   2006 NASA Strategic Plan, Strategic
                                                                   Communications: Education Initiative
  University development and enhancement of            1,000,000   2006 NASA Strategic Plan, Goals 4 and 6,
  space flight technologies                                        Sub-goal 3F
  Program for high-power pulsed inductive              2,000,000   2006 NASA Strategic Plan, Goals 4 and 6
  thruster technology research
  University research of rejuvenating injured          1,000,000   2006 NASA Strategic Plan, Sub-goal 3F
  tissues for enhanced wound healing
  Laboratory initiative for a modeling and             1,000,000   2006 NASA Strategic Plan, Goal 6;
  simulation test bed environment                                  Sub-goal 3F


                                                                                                Enclosure 7
                                                                                                Page 1 of 2
                     Site-Specific Earmarks that Aligned with NASA’s Priorities

  Mission Directorate or Cross-Agency                              Program Documents Used to Assess
            Support Office                           Amount            Alignment with Priorities
Other Cross-Agency Support Offices
  Infrastructure upgrades to accommodate              4,000,000   2006 NASA Strategic Plan, Sub-goal 3E
  unmanned aerial vehicles
Science
  University center for earth observing research      2,000,000   2006 NASA Strategic Plan, Sub-goal 3A
  Collaborative research of earth science             2,000,000   2006 NASA Strategic Plan, Sub-goal 3A
  applications
  University laboratory for advanced scintillator      800,000    2006 NASA Strategic Plan, Goal 3
  materials
  University support of a large millimeter             750,000    2006 NASA Strategic Plan, Goal 3
  telescope project
  Project to support geospatial sciences               200,000    2006 NASA Strategic Plan, Sub-goal 3A
      Total site-specific earmarks that align
      with priorities (21)                          $28,450,000




                                                                                              Enclosure 7
                                                                                              Page 2 of 2
                        NASA’s Process for Identifying, Awarding,
                         and Monitoring Site-Specific Earmarks

Within each of the phases illustrated below, some tasks are performed concurrently rather than
sequentially.




                                                                                 Enclosure 8
                                                                                 Page 1 of 1
                             Calculation of Additional Administration Costs

NASA follows full cost accounting principles throughout Agency programs. Those principles
were followed on earmark projects in three ways. First, NASA reduced earmark funding for
Government-wide budget reductions and the corporate overhead rate. Second, the Center
responsible for managing the earmark project applied a Center overhead rate. Centers were
not required to apply an overhead rate but had the option of applying the lesser of 1 percent of
the earmark’s value or $20,000. Third, the responsible Center deducted the cost of civil
servants working directly on the project.

However, for 22 of the 42 earmarks in our sample, the full costs of Center overhead and
administrative effort by Center technical officers were not accounted for as earmark project
costs. Those costs should have been charged to earmarks under the Agency’s full cost
accounting practices. As shown below, we estimate that NASA incurred administration costs
of $8 million more than the total amount of earmark funds identified in Conference Report on
H.R. 2862, “Science, State, Justice, Commerce, and Related Agencies Appropriations Act,
2006.”

Programmatic Earmarks
   Universe of 12 Programmatic Earmarks                                                        $ 280,700,000
                                                                                                            a
   Additional Administration Costs                                                                 4,268,983
     Audited Full Cost of Programmatic Earmarks                                                $ 284,968,983

Site-Specific Earmarks
    Universe of 187 Site-Specific Earmarks                                                     $ 287,475,000
                                                                                                            b
    Estimated Additional Administration Costs                                                      3,756,260
      Estimated Full Cost of Site-Specific Earmarks                                            $ 291,231,260

Combined Audited and Estimated Full Cost of FY 2006 Earmarks
  Audited Full Cost of Programmatic Earmarks                                                   $ 284,968,983
  Estimated Full Cost of Site-Specific Earmarks                                                  291,231,260
    Total Estimated Full Cost                                                                  $ 576,200,243

Combined Audited and Estimated Full Cost of FY 2006 Earmarks                                   $ 576,200,243
(Less) Congressionally Directed Spending per H.R. 2862                                          (568,175,000)
    Additional Administration Costs                                                               $ 8,025,243
a
    We calculated the actual cost of administrative effort and related overhead for all FY 2006 programmatic
    earmarks. The calculation was based on technical officer estimates of time spent on earmark administration.
b
    The estimate of additional technical officer administration is based on our review of 30 statistically selected site-
    specific earmarks. Our review identified additional administration costs of $531,802 or 1.3 percent ($531,802 ÷
    $40,700,000) more than the amount funded in the Conference Report. We applied the 1.3 percent increase to the
    universe of 187 site-specific earmarks (1.3 percent × $287,475,000) to estimate the cost of additional technical
    officer administration.




                                                                                                         Enclosure 9
                                                                                                         Page 1 of 1
                         Calculation of Earmarks not Aligned with Priorities

Our assessment determined earmark funds were spent for research and other projects that
did not align with Agency priorities. We estimated $86.5 million was associated with FY
2006 earmarks that did not align, as shown in the cost calculation below.

                             FY 2006 Earmarks not Aligned with Priorities
     Universe of 187 Site-Specific Earmarks                                                  $ 287,475,000
     Percentage that did not align a                                                                  30.1%
       Estimate of FY 2006 Earmarks not Aligned                                               $ 86,525,031

a
    The estimate of FY 2006 earmarks that did not align is based on our review of 30 statistically selected site-
    specific earmarks. Our review identified 9 of the 30 site-specific earmarks that did not align with NASA
    priorities. The 9 earmarks that did not align were valued at $12,250,000 or 30.1 percent
    ($12,250,000 ÷ $40,700,000) of the sample universe.




                                                                                                   Enclosure 10
                                                                                                    Page 1 of 1
